                    National Aeronautics and
                    Space Administration

                    Office of Inspector General
                    Washington, D.C. 20546-0001



Reply to Attn of:   W                                                                       October 20, 2004



                    TO:            Deputy Chief Acquisition Officer/Director for Procurement
                                   Director, Ames Research Center
                                   Director, Goddard Space Flight Center
                                   Director, Johnson Space Center

                    FROM:          Assistant Inspector General for Auditing

                    SUBJECT:       Final Memorandum on Management of NASA Procurement Workforce
                                   Assignment Number A-03-024-00
                                   Report Number IG-05-002


                    We conducted an audit of the management of the NASA procurement workforce to
                    determine whether NASA defined its procurement workforce consistent with the Office of
                    Federal Procurement Policy’s (OFPP) definition, adequately addressed the training needs of
                    that workforce, adequately addressed procurement workforce attrition, and initiated
                    additional actions to address future procurement workforce planning. We performed audit
                    work at Ames, Goddard, Headquarters, and Johnson. Enclosure 2 provides details on the
                    objectives, scope, and methodology of the audit.

                    Executive Summary

                    The President’s Management Agenda places emphasis on Human Capital issues in the
                    Federal workforce. Because NASA spends 85 to 90 percent of its budget through
                    procurements each year, effective management of the procurement workforce is especially
                    critical for the Agency. During the audit, we identified management control weaknesses for
                    ensuring that designated Contracting Officer Technical Representatives (COTRs) received
                    the required training. We found that, in some cases, COTRs lacked the required training
                    necessary to carry out their delegated duties and responsibilities.

                    We made five recommendations to Agency management geared toward ensuring that all
                    designated COTRs receive the required training necessary to effectively perform their
                    contract oversight duties and responsibilities. Management concurred with all of our
                    recommendations and has taken appropriate corrective action.
                                                                                           2



In addition to the Presidential emphasis on Human Capital issues in the Federal workforce,
the Government Accountability Office (GAO) has highlighted Human Capital as a
management challenge for Federal agencies. Because NASA spends 85 to 90 percent of its
budget through procurements each year, NASA has initiated a number of acquisition reform
initiatives to streamline the acquisition process including the effective management of the
procurement workforce.

We found that NASA defined its procurement workforce generally consistent with the OFPP
definition. In OFPP Policy Letter 97-01, dated September 12, 1997, OFPP defines an
agency’s acquisition workforce to include (1) all positions in the General Schedule
(GS-1102) contracting series; (2) all contracting officers regardless of GS series with
authority to obligate funds above the micropurchase threshold; (3) all positions in GS-1105
purchasing series; and (4) all COTRs or equivalent positions. We also found that the Agency
adequately addressed procurement workforce attrition and initiated appropriate actions
addressing future procurement workforce planning. Our analysis of hires and losses at the
installations reviewed indicated that NASA has taken steps to address workforce attrition by
implementing programs that facilitate the hiring, development, and retention of procurement
professionals. Additionally, each installation reviewed had either taken or initiated actions to
address future procurement workforce planning (for example, using NASA’s Cooperative
Education and Contracting Intern programs to bring in entry-level procurement
professionals).

NASA’s Office of the Chief Financial Officer/Procurement Directorate has Agency-wide
responsibility for functional management, leadership, and policy direction of procurement
activities. Installation program offices are responsible for ensuring that COTRs possess the
necessary training commensurate with the duties and responsibilities for which they will be
delegated. Installation procurement personnel are required to verify that delegated COTRs
have received the mandatory basic training before duties are delegated. Although the Office
of the Chief Financial Officer/Procurement Directorate instituted a career development
program designed to provide procurement professionals with the type of standardized and
consistent training that adequately addresses the training needs of the workforce, controls
over the training of COTRs needed improvement. Specifically, we found that of the
1,593 designated NASA COTRs at the 4 installations reviewed, 18 (6 active and 12 inactive)
lacked the required basic training and 571 needed refresher training. For effective contract
administration, all designated COTRs must be properly trained to perform the duties and
responsibilities assigned to them. The problem of designated COTRs lacking the required
training occurred because the installations did not effectively track and enforce COTR
training. Also, although NASA’s Office of the Chief Financial Officer/Procurement
Directorate has Agency-wide responsibility of procurement activities, the office is not
directly involved in tracking and ensuring that installation COTRs receive the required
training.
                                                                                          3



We made five recommendations to ensure that all designated COTRs are effectively trained
to carry out their oversight responsibilities. Specifically, we recommended that the Ames
and Johnson Center Directors ensure that active COTRs at the respective centers who have
not had basic COTR training take the mandatory basic training. We also recommended that
the Deputy Chief Acquisition Officer/Director for Procurement coordinate with the Center
Directors and Procurement Officers to ensure that all active COTRs have the necessary
refresher training. We further recommended that the Deputy Chief Acquisition
Officer/Director for Procurement revise the NASA Far Supplement to incorporate a clear
policy for the frequency of refresher training. Finally, we recommended that the Deputy
Chief Acquisition Officer/Director for Procurement track and enforce completion of basic
and refresher COTR training on an Agency-wide basis. Management concurred with all of
our recommendations.

Some COTRs Lack Required Basic COTR Training

NASA Federal Acquisition Regulation (FAR) Supplement (NFS) 1842.270, “Contracting
Officer Technical Representative (COTR) Delegations,” requires that, with one exception,
employees must complete a mandatory basic COTR training course before they can be
designated as COTRs and assume delegated contract oversight responsibilities. The
exception to that requirement is that the Procurement Officer may appoint a temporary
COTR for no longer than 6 months on an urgent need basis without the COTR taking the
required basic training. Generally, controls at the four installations reviewed were effective
in ensuring that designated COTRs had the required basic training. Of the 1,593 designated
COTRs, 6 active COTRs lacked the required basic training. Active COTRs are designated
COTRs who are responsible for monitoring one or more NASA contracts. The six COTRs,
at two NASA installations, were responsible for monitoring eight contracts valued at
approximately $86.4 million in total. Enclosure 3 provides, by installation, details of COTR
training data.

A summary of the specific basic COTR training data for each installation reviewed follows.

   •   Of the 591 designated COTRs at Ames, 14 have not had basic COTR training. Of the
       14, 2 were active COTRs at the time of our field work. Those two COTRs were
       responsible for monitoring four contracts valued at approximately $71.7 million in
       total.

   •   Of the 668 designated COTRs at Goddard, all 668 have had the required basic
       training.

   •   Of the 125 designated COTRs at Headquarters, all 125 have had the required basic
       training.
                                                                                           4


   •   Of the 209 designated COTRs at Johnson, 4 had not had basic COTR training. Those
       four COTRs were responsible for monitoring four contracts valued at approximately
       $14.7 million in total.

The problem of having active COTRs who lack basic training occurred because of
inadequate management controls at Ames and Johnson. At the two installations, six COTRs
were assigned COTR responsibilities without verification of training or proper delegation.
Installation program offices did not ensure that the active COTRs possessed the necessary
training commensurate with the duties and responsibilities for which they would be
delegated, pursuant to NFS 1842.270(a). Also, contracting officers did not verify that the
designated COTRs had received the mandatory basic training before signing the delegation
forms, pursuant to NFS 1842.270(g).

For effective contract administration and oversight, all active NASA COTRs must have the
required training to perform the duties and responsibilities delegated to them. Basic COTR
training is also necessary and prudent because such training helps protect the interests of the
individuals assigned as COTRs, since those individuals may be held personally liable for
unauthorized acts.

Some COTRs Lack Refresher COTR Training

Of the 1,593 COTRs at the 4 installations reviewed, 571 needed refresher training in
accordance with Office of the Chief Financial Officer/Procurement Directorate guidance.
Of those 571, 70 were active COTRs who were monitoring 159 contracts valued at
approximately $801 million in total. Enclosure 4 provides a breakdown, by installation, of
the number of COTRs needing refresher training and number of years since their last
training.

A summary of the specific COTR refresher training data for each installation reviewed is as
follows.

   •   Of the 591 designated Ames COTRs, 363 needed refresher training. Of those 363, 29
       were active COTRs at the time of our field work. The 29 active COTRs were
       responsible for monitoring 47 contracts valued at approximately $511.3 million in
       total. Among the 29 active COTRs needing refresher training, the elapsed time since
       their last COTR training varied from 5 to 12 years.

   •   Of the 668 designated Goddard COTRs, 81 needed refresher training. Of those 81,
       19 were active COTRs at the time of our field work. The 19 active COTRS were
       responsible for monitoring 77 contracts valued at approximately $143.9 million in
       total. Among the 19 active COTRs needing refresher training, the elapsed time since
       their last COTR training varied from 5 to 12 years.
                                                                                         5


   •   Of the 125 designated Headquarters COTRs, 79 needed refresher training. Of those
       79, 2 were active COTRs at the time of our field work. The 2 active COTRs were
       responsible for monitoring 10 contracts valued at $22.7 million in total. Both of the
       COTRs last received COTR training 8 years ago.

   •   Of the 209 designated Johnson COTRs, 48 needed refresher training. Of those 48, 20
       were active COTRs at the time of our field work. The 20 COTRs were responsible
       for monitoring 25 contracts valued at $123 million. Among the 20 active COTRs
       needing refresher training, the elapsed time since their last COTR training varied
       from 5 to 10 years.

The failure to ensure that some COTRs received refresher training occurred because the NFS
included a mandatory requirement for basic COTR training, but does not include any explicit
requirement for refresher training. Instead of implementing an NFS requirement pertaining
to refresher training, the Assistant Administrator (AA) for Procurement [now the Deputy
Chief Acquisition Officer/Director for Procurement] issued guidance, in the form of a
memorandum (Enclosure 5) to installation Procurement Officers, dated September 13, 2001,
requesting that each installation pursue refresher training for COTRs.

The memorandum states that, as a minimum, refresher training should be given to those
COTRs who have not received comprehensive training within the last 5 years. The Audit
Liaison Representative for the Office of the Chief Financial Officer/Procurement Directorate
at NASA Headquarters informed us that the Deputy Chief Acquisition Officer/Director for
Procurement decided to issue a memorandum in lieu of implementing an NFS requirement
because the Office of the Chief Financial Officer/Procurement Directorate and the
installation procurement offices did not have the authority to impose training requirements on
installation program personnel. COTRs report to installation program offices, not the Deputy
Chief Acquisition Officer/Director for Procurement or the installation procurement offices.
Also, training budgets, including funding for COTR training, are managed by each respective
installation and not the Office of the Chief Financial Officer/Procurement Directorate.
Despite the memorandum from the AA [now the Deputy Chief Acquisition Officer/Director
for Procurement], COTR refresher training at the four NASA installations reviewed was not
sufficiently tracked and enforced because of uncertainty whether the memorandum was
intended as mandatory Agency policy or simply a suggestion.

The Federal procurement environment is dynamic and changes rapidly. Therefore, for
effective contract administration and oversight, periodic COTR refresher training is essential
to ensure that designated COTRs are aware of the most current Federal procurement
regulations, policies, initiatives, procedures, and techniques relating to their COTR duties
and responsibilities. A firm Agency policy requiring refresher training will help ensure
consistent training of designated COTRs as well as effective tracking and enforcement of the
required training.

Management’s Response is included as Enclosure 6.
                                                                                        6

Recommendations for Corrective Action

1. The Ames Center Director should ensure that those active COTRs who have not
   had basic COTR training take the mandatory basic training. If the COTRs are
   unable to take the basic training at its next offering, technical oversight
   responsibilities for the contracts should be reassigned to COTRs who have met the
   basic training requirements.

Management’s Response. Concur. The Ames Center Director issued a memorandum to the
Center’s organizational Directors restating the policy for training of COTRs. Ames will
ensure that active COTRs who have not had basic COTR training take the mandatory basic
training within the next 6 months and refresher COTR training classes every 5 years.
Technical oversight responsibilities for the contracts will be reassigned to COTRs who have
met the basic training requirements if the primary COTR has not been properly trained.

Evaluation of Management’s Response. Ames management provided documentation
verifying that the two COTRs completed the required training. Management’s actions are
responsive to the recommendation. We consider the recommendation closed for reporting
purposes.

2. The Johnson Center Director should ensure that those active COTRs who have not
   had basic COTR training take the mandatory basic training. If the COTRs are
   unable to take the basic training at its next offering, technical oversight
   responsibilities for the contracts should be reassigned to COTRs who have met the
   basic training requirements.

Management’s Response. Concur. Of the four COTRs identified at Johnson who had not
received the basic training, three attended a training session held February 2-4, 2004. The
remaining COTR attended a training session held August 16-18, 2004. The Johnson Office
of Procurement reminded all Center contracting officers to verify that a COTR has received
the mandatory training before signing NASA Form 1634, “Contracting Officer Technical
Representative (COTR)/Alternate COTR Delegation.”

Evaluation of Management’s Response. Johnson management provided documentation
verifying that the four COTRs completed the required training. Management’s actions are
responsive to the recommendation. We consider the recommendation closed for reporting
purposes.

3. The AA for Procurement [now the Deputy Chief Acquisition Officer/Director for
   Procurement], in coordination with the Center Directors and Procurement Officers
   at the four installations reviewed, should ensure that the active COTRs who have
   not had refresher COTR training take the training at the next available offering.
                                                                                         7

Management’s Response. Concur. The Deputy Chief Acquisition Officer/Director for
Procurement will issue a letter to the Center Directors advising them of the recommendation
and ask that they advise the COTRs of the need to take refresher training at least once every
5 years. The letter will be issued by October 31, 2004.

Evaluation of Management’s Response. A memorandum was issued on
September 3, 2004 (see Enclosure 7). Management’s actions are responsive to the
recommendation. We consider the recommendation closed for reporting purposes.

4. The AA for Procurement [now the Deputy Chief Acquisition Officer/Director for
   Procurement] should revise the NFS and incorporate a clear policy for mandatory
   refresher COTR training at a specified interval (for example, at least every 5 years).

Management’s Response. Concur. Procurement Notice 97-102 was prepared and states the
requirement for refresher training for all COTRs for whom it has been more than 5 years
since they received comprehensive training.

Evaluation of Management’s Response. Procurement Notice 97-102 was issued on
August 27, 2004. Management’s actions are responsive to the recommendation. We
consider the recommendation closed for reporting purposes.

5. The AA for Procurement [now the Deputy Chief Acquisition Officer/Director for
   Procurement] should ensure that the Office of the Chief Financial
   Officer/Procurement Directorate tracks and enforces on an Agency-wide basis
   completion of basic and refresher COTR training.

Management’s Response. Concur. The Office of the Chief Financial Officer/Procurement
Directorate requested its Procurement Survey Team to review the area of COTR training
when performing procurement surveys. COTR training weaknesses are reported
immediately to the Center Procurement Officer for corrective action.

Evaluation of Management’s Response. In addition to tasking the Procurement Survey
Team to review the area of COTR training, the Deputy Chief Acquisition Officer/Director for
Procurement also issued a memorandum to Center Directors on September 3, 2004 (see
Enclosure 7), asking them to reinforce the need for the technical directorates to get directly
involved with the COTRs and the Procurement Officer to ensure that the required training is
received. Management’s actions are responsive to the recommendation. We consider the
recommendation closed for reporting purposes.
                                                                                       8

If you have questions, please contact Mr. Joe Kroener, Director, Procurement Directorate at
(202) 358-2558. We appreciate the courtesies and cooperation provided during the audit.


[original signed by]

David M. Cushing

Enclosures

cc:
Administrator
Chief Financial Officer
Office of the Chief Financial Officer/Procurement Directorate/Audit Liaison Representative
Office of Institutional and Corporate Management, Management Systems Division/
  Audit Liaison Representative
ARC/241-1/Chief, Acquisition Division
ARC/200-9/Audit Liaison Representative
GSFC/210/Chief, Procurement Operations Division
GSFC/201/Audit Liaison Representative
JSC/BA/Director, Office of Procurement
JSC/BD5/Audit Liaison Representative
                       Status of Recommendations

Recommendation No.     Resolved     Unresolved   Open/ECD*   Closed
         1                X                                     X
         2                X                                     X
         3                X                                     X
         4                X                                     X
         5                X                                     X


*ECD – Estimated Completion Date.




                                                             Enclosure 1
                        Objectives, Scope, and Methodology
Our objectives were to determine whether NASA defined its procurement workforce
consistent with the OFPP’s definition, adequately addressed the training needs of that
workforce, adequately addressed the effect of procurement workforce attrition, and initiated
additional actions to address future procurement workforce planning. To accomplish the
objectives, we performed the following work:

   •   Interviewed NASA Office of the Chief Financial Officer/Procurement Directorate
       personnel; Center Procurement Management; and Acquisition Training Coordinators
       at Headquarters and all the Centers (Ames, Goddard, and Johnson).

   •   Identified NASA and Center Contracting Officers (COs) and Contracting Officer
       Technical Representatives (COTRs) and determined their certification and training
       levels.

   •   Obtained and reviewed hires and departures for the period October 1, 2000, through
       August 19, 2003.

   •   Reviewed Center Procurement Management Survey Reports to identify areas of
       weaknesses, considerations/recommendations, and best practices at the three Centers.

   •   Reviewed COTR Training Evaluation Forms.

   •   Interviewed procurement management officials at Ames, Goddard, and Johnson to
       verify actions taken by each Center to address future workforce planning.

We performed the audit from August 2003 through February 2004 in accordance with
generally accepted government auditing standards.




                                                                              Enclosure 2
                              COTR Training Data By Installation


                             Ames         Goddard       Headquarters    Johnson          Total



Total Number of COTRs         591            668            125            209           1,593




COTRs with No Basic
                              14              0              0              4             18
Training
   Active (delegated to
                               2              0              0              4              6
   monitor contracts)

Number of Contracts
                               4              0              0              4              8
Monitored
Value of Contracts
                          $71,682,751        $0             $0         $14,724,767    $86,407,518
Monitored




COTRs in Need of
                              363            81             79             48             571
Refresher Training
  Active (monitoring
                              29             19              2             20             70
   contracts)

Number of Contracts
                              47             77             10             25             159
Monitored
Value of Contracts
                          $511,254,825   $143,942,415   $22,743,766    $122,958,316   $800,899,322
Monitored




                                                                                      Enclosure 3
                          Number of Active COTRs
                  And Years Elapsed Since Refresher Training


Elapsed Years    Ames       Goddard    Headquarters   Johnson        Total



 5 to 6 Years     12          10            0            11           33

 7 to 8 Years     8            8            2            2            20

9 to 10 Years     5            0            0            7            12

11 to 12 Years    4            1            0            0             5

   TOTAL          29          19            2            20           70




                                                                Enclosure 4
Memorandum from Deputy Chief Acquisition Officer/Director for
      Procurement to Installation Procurement Officers




                                                    Enclosure 5
Management’s Response




                         Enclosure 6
                        (Page 1 of 3)
Management’s Response




                         Enclosure 6
                        (Page 2 of 3)
Management’s Response




                         Enclosure 6
                        (Page 3 of 3)
Memorandum to Center Directors Regarding COTR Training




                                                Enclosure 7
